MEMORANDUM FOR:                RAYMOND J. UHALDE
                               Deputy Assistant Secretary
                                for Employment and Training


FROM:                          JOHN J. GETEK
                               Assistant Inspector General
                                 for Audit


SUBJECT:                       Audit of Woodstock Job Corps Center
                               Final Audit Report No. 02-01-202-03-370


The attached final report is submitted for your resolution action. We request a response to this report
within 60 days. It is your office’s responsibility to transmit a copy of this report to Adams and
Associates, Inc. officials. However, we are providing a courtesy copy directly to them. If you have
any questions concerning this report, please contact Richard H. Brooks, Regional Inspector General for
Audit, at (212) 337-2566.


Attachment


cc: Richard Trigg, Job Corps
    Roy Adams, Adams & Associates, Inc.
             AUDIT OF
WOODSTOCK JOB CORPS CENTER EXPENSES


         CONTRACT NUMBERS
       3-JC-401-24 AND 3–JC-901-24
JANUARY 1, 1999 THROUGH DECEMBER 31, 1999




                      U.S. DEPARTMENT OF LABOR
                      OFFICE OF INSPECTOR GENERAL

                      REPORT NO: 02-01-202-03-370
                      DATE:
                                                  TABLE OF CONTENTS




ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          AUDIT OBJECTIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

ASSISTANT INSPECTOR GENERAL’S REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDING AND RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

EXHIBITS

     A         CONSOLIDATED SCHEDULE OF NET CENTER OPERATION
                EXPENSE CATEGORIES AND QUESTIONED COSTS -
               JANUARY 1, 1999 TO DECEMBER 31, 1999 . . . . . . . . . . . . . . . . . . . . . . . 10

     B         SCHEDULE OF NET CENTER OPERATION EXPENSE CATEGORIES
                AND QUESTIONED COSTS CONTRACT NO. 3-JC-401-24 -
               JANUARY 1, 1999 TO MARCH 31, 1999 . . . . . . . . . . . . . . . . . . . . . . . . . . 11

     C         SCHEDULE OF NET CENTER OPERATION EXPENSE CATEGORIES
               AND QUESTIONED COSTS CONTRACT NO. 3–JC-901-24 -
               APRIL 1, 1999 TO DECEMBER 31, 1999 . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

APPENDIX

     ADAMS RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                     ACRONYMS




Adams     Adams and Associates, Inc.


DOL       U. S. Department of Labor


ETA       Employment and Training Administration


FAR       Federal Acquisition Regulation


FTS2000   Federal Technology Service 2000


G&A       General and Administrative


WSJCC     Woodstock Job Corps Center


PRH       Job Corps Policy and Requirements Handbook




                             i
                             EXECUTIVE SUMMARY

The U.S. Department of Labor, Office of Inspector General, conducted an audit of expenses claimed
by Adams and Associates, Inc. (Adams), to operate the Woodstock Job Corps Center (WSJCC) for
the period January 1, 1999 through December 31, 1999. Our objective was to determine if the
Consolidated Schedule of Net Center Operation Expenses Categories reported by Adams for
WSJCC was presented fairly in accordance with Federal requirements.

In our opinion, except for questioned costs, the Consolidated Schedule of Net Center Operation
Expense Categories (Exhibit A) presented fairly, the results of WSJCC’s operations in accordance
with applicable laws and regulations for the period January 1, 1999 through December 31, 1999.
Overall, expenses claimed by Adams were reasonable, allocable and allowable. For the audit period,
Adams claimed expenses of $8,677,452 of which we question $6,817 or less than 1 percent.

       <       We question $5,411 of student work incentive payments. Payments were made to
               students without center director approval. Furthermore, Adams paid the same invoices
               multiple times and students worked in excess of the maximum number of hours on
               school days. Adams did not maintain adequate controls over the payment of student
               vouchers and number of hours students worked.

       <       We question $1,406 of other expenses consisting of $959 due to inadequate
               documentation and $447 of applicable contractor’s general and administrative expense
               related to the above questioned costs.

Recommendation

We recommend that the Assistant Secretary for Employment and Training recover $6,817 of
questioned costs. We also recommend that the Assistant Secretary for Employment and Training
ensures Adams develops controls to ensure work incentive payments are authorized, hours worked do
not interfere with academic and vocational training, and budgetary constraints are monitored.

The Executive Vice President responded to our draft report on March 12, 2001. He agreed with the
finding and questioned costs of $6,370, which excludes $447 of applicable contractor’s general and
administrative expense. Based on the additional documentation provided by Adams, we have reduced
questioned costs as presented in the draft report by $55,974 to $6,817.

Adams’s response to the draft report has been incorporated in the report with our comments. It is also
included in its entirety as an Appendix.




                                                  1
                                      INTRODUCTION


                                           Job Corps was established in 1964 and is presently authorized
        BACKGROUND                         under Title I, Subtitle C of the Workforce Investment Act of
                                           1998. The overall purpose of the program is to provide
                                           economically disadvantaged youths aged 16 to 24 with the
opportunity to become more responsible, employable citizens. With annual funding over $1 billion, Job
Corps is the largest Federal youth employment and training program. Job Corps provides total support
for participants including basic education and vocational classes; dental, medical and eye care; social
skills training; meals; recreational activities; counseling; student leadership activities; and job placement
services.

Adams, a privately owned, for-profit organization incorporated in the State of Nevada, in September
1990 and is located in Reno, Nevada. It was formed to operate youth-oriented programs for local,
State, and Federal government entities and agencies. Current activities include the operation of five
Federal Job Corps centers and the management of three Job Corps Outreach, Admissions and
Placement programs in the eastern and southern regions of the U.S. Adams, also operates child
protection shelters in Reno, Nevada.

During Calendar Year 1999, Adams received total revenue of $32 million. Of this amount, $31 million
was provided by the Office of Job Corps to operate centers, and admit, recruit and place participants.

The Department of Labor awarded two contracts to Adams to operate WSJCC located in
Woodstock, Maryland. Contract number 3-JC-401-24 covered the period April 1, 1994 through
March 31, 1999, and contract number 3-JC-901-24 covers the period April 1, 1999 through March
31, 2001. WSJCC’s contract base period is April 1, 1999 to March 31, 2001, and contains options
for three additional years for a total of $18,537,274.

                                         The objective was to determine if the Consolidated Schedule
      AUDIT OBJECTIVE                    of Net Center Operation Expenses Categories reported by
                                         Adams for WSJCC were presented fairly in accordance with
                                         Federal requirements for the period January 1, 1999 through
                                         December 31, 1999.




                                                      2
                                         We audited expenses of $8,677,452 claimed under contract
      AUDIT SCOPE AND                    numbers 3-JC-401-24 and 3-JC-901-24 for the period
       METHODOLOGY                       January 1, 1999 through December 31, 1999. Our audit
                                         period included the last 3 months of contract number
                                         3-JC-401-24, and the first 9 months of contract
number 3-JC-901-24 as shown below:


             Contract No.        Contract Period        Audit Period      Reported Expenses
           3-JC-401-24          4/1/94 - 3/31/99     1/1/99-3/31/99                $2,139,473

           3-JC-901-24          4/1/99 - 3/31/01     4/1/99-12/31/99                6,537,979

                                                           Total                   $8,677,452

We obtained an understanding of WSJCC internal controls through inquires with appropriate
personnel, inspection of relevant documentation, and observation of operations. The nature and extent
of our testing were based on the risk assessment.

We examined center operation expenses, public vouchers, general ledgers and supporting
documentation including vouchers and invoices. We used a combination of random and judgmental
sampling techniques to test individual account transactions. Testing was expanded in accounts when
errors exceeded the expected error rate. We did not audit performance measurements of WSJCC.

The audit was performed using criteria we considered relevant. Criteria included the Code of Federal
Regulations Title 20, the Federal contract cost principles set forth in the Federal Acquisition Regulation,
Part 31, and the Job Corps Policy and Requirements Handbook (PRH). Also, all other requirements in
the current contract were used as criteria in evaluating the allowability of claimed expenses.

We conducted our audit in accordance with generally accepted auditing standards and standards
applicable to financial statements contained in the Government Auditing Standards, issued by the
Comptroller General of the United States. We conducted fieldwork from October 24, 2000 to
November 21, 2000, at WSJCC located in Woodstock, Maryland. We held an exit conference with
the Center Director on November 21, 2000.




                                                    3
Mr. Raymond J. Uhalde
Deputy Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210


                       ASSISTANT INSPECTOR GENERAL’S REPORT

We audited the Consolidated Schedule of Net Center Operation Expense Categories (Exhibit A)
for the period January 1, 1999 through December 31, 1999, under DOL contract numbers
3-JC-401-24 and 3-JC-901-24. The expenses claimed are the responsibility of Adams management.
Our responsibility is to express an opinion on the reported expenses based on our audit.

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States. These standards require
that we plan and perform the audit to obtain reasonable assurance about whether reported expenses
are free of material misstatements. An audit includes examining, on a test basis, evidence supporting the
reported expenses. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall presentation of the reported expenses.
We believe our audit provides a reasonable basis for our opinion.

The Consolidated Schedule of Net Center Operation Expense Categories was prepared in
conformity with accounting practices prescribed by Job Corps’ Policy and Requirements Handbook,
Chapter 9, Financial Management, which is a comprehensive basis of accounting other than generally
accepted accounting principles. Allowable expenses are established by Federal regulations.

Opinion on Financial Statement

As discussed in the Finding and Recommendation section, weaknesses over payments to students for
work incentives and inadequate documentation to support claimed expenses resulted in questioned
costs of $6,817. ETA is responsible for resolving these questioned costs. The total effect of ETA’s
determination cannot be estimated at this time.

In our opinion, except for the matters discussed in the preceding paragraph, the Consolidated
Schedule of Net Center Operation Expense Categories presents fairly, in all material respects, the
results of WSJCC’s operations in accordance with applicable laws and regulations for the period
January 1, 1999 through December 31, 1999.

Report on Internal Control

                                                    4
In planning and performing our audit, we considered Adams internal control over financial reporting in
order to determine our auditing procedures for the purpose of expressing our opinion on reported
expenses and not to provide assurances on the internal control over financial reporting. However, we
noted certain matters involving the internal control over student work incentive payments that we
consider to be reportable conditions. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation on the internal control over financial
reporting that, in our judgment, could adversely affect Adams ability to record, process, summarize,
and report financial data consistent with the assertions of management in the financial statements.
Reportable conditions are described in the Finding and Recommendation section of this report.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be material weaknesses. A material
weakness is a condition in which the design or operation of one or more of the internal control
components does not reduce to a relatively low level of risk that misstatements in amounts that would
be material in relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions. However, we
believe that none of the reportable conditions described in the Finding and Recommendation sections of
this report are material weaknesses.

Report on Compliance with Laws and Regulations

Compliance with laws, regulations, and contract agreement provisions is the responsibility of Adams.
As part of obtaining reasonable assurance about whether reported expenses are free of material
misstatement, we performed tests of Adams compliance with certain provisions of laws, regulations,
and the contract. However, our objective was not to provide an opinion on overall compliance with
such provisions. Accordingly, we do not express such an opinion. The results of our tests disclosed
instances of noncompliance that are required to be reported under Government Auditing Standards
and which are described in the Finding and Recommendation section of this report.

Supplementary Information

Our audit was conducted for the purpose of expressing an opinion on the Consolidated Schedule of
Net Center Operation Expense Categories for the period January 1, 1999 through
December 31, 2000. The audit period included January 1, 1999 through March 31, 1999, for
contract number 3-JC-401-24 (Exhibit B), and April 1, 1999 through December 31, 1999, for
contract number 3-JC-901-24 (Exhibit C), which are presented for purposes of providing an




                                                   5
additional analysis of expenses. Exhibits B and C have been subjected to the auditing procedures
applied in the audit of the Consolidated Schedule of Net Center Operation Expense Categories
and, in our opinion, are fairly stated in all material respects in relation to the Consolidated Schedule of
Net Center Operation Expense Categories taken as a whole.

This report is intended solely for the information and use of Adams and ETA and is not intended to be
and should not be used by anyone other than these specified parties.




John J. Getek
Assistant Inspector General
 for Audit

November 21, 2000




                                                     6
                   FINDING AND RECOMMENDATION

Overall, expenses claimed by Adams were reasonable, allocable and allowable. For the audit period,
Adams claimed expenses of $8,677,452 of which we question $6,817 or less than 1 percent.


                                                    Contract Number
                                             3-JC-401-24      3-JC-901-24           Total

           Student Work Incentives                       $0          $5,411           $5,411

           Inadequate Documentation                     475              484                959

           Total                                        475            5,895           6,370

           G&A                                           31              416                447

           Total Questioned Costs                      $506          $6,311           $6,817


                                     Adams paid students $42,228 for chores performed at the center.
 Student Work Incentive              Contrary to contract requirements, chores were performed on
 Program                             school days and were not approved by the Center Director.
                                     Students were working up to 10 hours on school days and paid
                                     multiple times for the same work. Further, the work incentive
program was utilized significantly more than the original contract estimate of $15,000. These conditions
existed because Adams did not maintain controls over payments made to students. As a result we
question $5,411 paid to students for the work incentive program.

Contract number 3-JC-901-24, Best and Final -WSJCC- Narrative Cost Justification states:

        Students Work Incentives - Students will be rewarded for volunteering to assist with
        various work projects on Center. . . . This work will be performed as needed during
        non-class time, primarily on weekends. . . . The incentive will vary depending upon the
        effort involved, and be subject to Center Director approval. Costs are estimated at
        $1,250 per month at 12 months per year, total $15,000. [Emphasis added.]




                                                   7
                                    We question $959 for two sampled items for which invoices
 Miscellaneous                      could not be located. One invoice (voucher no. 8youpat)
                                    totaling $484 was for social skills expense and the other
                                    (voucher no. 5quints) was $475 for clothing purchases. FAR
                                    31.201-2(d) states:

       A contractor is responsible for accounting for costs appropriately and for maintaining
       records, including supporting documentation, adequate to demonstrate that costs
       claimed have been incurred, are allocable to the contract, and comply with applicable
       costs principles in this subpart and agency supplements. The contracting officer may
       disallow all or part of a claimed cost which is inadequately supported.

Recommendation

We recommend that the Assistant Secretary for Employment and Training recover $6,817 of
questioned costs. We also recommend that the Assistant Secretary for Employment and Training
ensures Adams develops controls to ensure work incentive payments are authorized, hours worked do
not interfere with academic and vocational training, and budgetary constraints are monitored.

Adams Response

Student Work Incentive Program

       Student work incentive records for 1999 were reviewed to determine the extent to which
       duplicate payments, approval deficiencies and/or questionable student signatures were
       found. The sample excluded records for the period January 1, 1999 through
       March 31, 1999 which were seriously obliterated through water damage in the storage
       area. The remaining records for the period April 1, 1999 through December 31, 1999
       represent 81% of the expenditures for this subaccount. Each of these issues was found in
       the selected sample and cited as a basis for the expense being disallowed, with deficiency
       totals as follows:

                      Center Director/F&A Director approvals missing       $1,405
                      Apparent duplicate payments                             543
                      Questionable student signatures                       2,435
                                    Deficiency total                       $4,383

       Thus, a total of $4,383 of this 81% cost sample was deemed unallowable by error. On a
       pro-rated basis, the 100% deficiency error is calculated to be $5,411 ($4,383/81%).




                                                8
Miscellaneous

       The entire accounts payable package was missing from the files for each of these
       payments, indicating inaccurate alphabetical filing or intentional removal of the file from
       the cabinet. We have not been able to locate the specified backup documents. We
       acknowledge the resultant disallowabilty of $959.

OIG Comment

The Executive Vice President agreed with the finding and questioned costs of $6,370, which excludes
$447 of applicable contractor’s general and administrative expense. Based on the additional
documentation provided by Adams, we have reduced questioned costs as presented in the draft report
by $55,974 to $6,817.




                                                 9
                                                                                     Exhibit A

                                   Woodstock Job Corps Center
                 Consolidated Schedule of Net Center Operation Expense Categories
                                       and Questioned Costs
                               January 1, 1999 to December 31, 1999

        Center Operation               Reported         Questioned      Per
        Expense Categories             Expenses           Costs         Audit

Education Personnel                        $586,445                      $586,445
Other Education                              45,169                        45,169
Vocational Personnel                        517,494                       517,494
Other Vocational                            109,252                       109,252
Social Skills Personnel                   1,575,125                      1,575,125
Other Social Skills                         261,786        $5,895         255,891
Food                                        505,282                       505,282
Clothing                                    146,327           475         145,852
Support Service Personnel                   520,190                       520,190
Other Support Services                      248,090                       248,090
Medical/Dental Personnel                    390,653                       390,653
Other Medical/Dental                         99,851                        99,851
Administrative Personnel                    880,589                       880,589
Other Administration                        224,438                       224,438
Contractor’s G&A                            534,329           447         533,882
Facility Maintenance Personnel              253,587                       253,587
Other Facility Maintenance                  383,326                       383,326
Security Personnel                          298,208                       298,208
Other Security                               17,309                        17,309
Communications                              105,111                       105,111
Utilities and Fuel                          340,226                       340,226
Insurance                                    64,878                        64,878
Motor Vehicle                                66,514                        66,514
Travel and Training                          81,023                        81,023
Contractor’s Fee                            422,250                       422,250
Net Center Operations                    $8,677,452        $6,817       $8,670,635


                                                  10
                                                                                   Exhibit B

                                  Woodstock Job Corps Center
                                   Contract No. 3-JC-401-24
           Schedule of Net Center Operation Expense Categories and Questioned Costs
                               January 1, 1999 to March 31, 1999

        Center Operation              Reported        Questioned       Per
        Expense Categories            Expenses          Costs         Audit

Education Personnel                      $136,839                      $136,839
Other Education                            15,194                        15,194
Vocational Personnel                      128,915                       128,915
Other Vocational                           40,031                        40,031
Social Skills Personnel                   370,106                       370,106
Other Social Skills                        63,053                        63,053
Food                                      115,029                       115,029
Clothing                                   46,971           475          46,496
Support Service Personnel                 119,508                       119,508
Other Support Services                     69,979                        69,979
Medical/Dental Personnel                  105,997                       105,997
Other Medical/Dental                       30,016                        30,016
Administrative Personnel                  216,480                       216,480
Other Administration                       49,534                        49,534
Contractor’s G&A (6.5%)                   124,948           31          124,917
Facility Maintenance Personnel             62,409                        62,409
Other Facility Maintenance                 97,778                        97,778
Security Personnel                         74,749                        74,749
Other Security                              3,929                         3,929
Communications                             33,183                        33,183
Utilities and Fuel                         85,413                        85,413
Insurance                                  20,835                        20,835
Motor Vehicle                              18,470                        18,470
Travel and Training                        17,857                        17,857
Contractor’s Fee                           92,250                        92,250
Net Center Operations                  $2,139,473          $506       $2,138,967


                                                 11
                                                                                   Exhibit C
                                  Woodstock Job Corps Center
                                   Contract No. 3-JC-901-24
           Schedule of Net Center Operation Expense Categories and Questioned Costs
                              April 1, 1999 to December 31, 1999

         Center Operation             Reported        Questioned       Per
        Expense Categories            Expenses          Costs         Audit

Education Personnel                      $449,606                      $449,606
Other Education                            29,975                        29,975
Vocational Personnel                      388,579                       388,579
Other Vocational                           69,221                        69,221
Social Skills Personnel                 1,205,019                      1,205,019
Other Social Skills                       198,733        $5,895         192,838
Food                                      390,253                       390,253
Clothing                                   99,356                        99,356
Support Service Personnel                 400,682                       400,682
Other Support Services                    178,111                       178,111
Medical/Dental Personnel                  284,656                       284,656
Other Medical/Dental                       69,835                        69,835
Administrative Personnel                  664,109                       664,109
Other Administration                      174,904                       174,904
Contractor’s G&A (7.06%)                  409,381           416         408,965
Facility Maintenance Personnel            191,178                       191,178
Other Facility Maintenance                285,548                       285,548
Security Personnel                        223,459                       223,459
Other Security                             13,380                        13,380
Communications                             71,928                        71,928
Utilities and Fuel                        254,813                       254,813
Insurance                                  44,043                        44,043
Motor Vehicle                              48,044                        48,044
Travel and Training                        63,166                        63,166
Contractor’s Fee                          330,000                       330,000
Net Center Operations                  $6,537,979        $6,311       $6,531,668

                                                 12
